U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Steven Jones v. United States of America,
S.Ct. No. 20-6841

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 7,
2021, and placed on the docket on January 12, 2021. The government’s response is due on
February 11, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6841
JONES, STEVEN
USA

PATRICIA VANESSA KEMP
FEDERAL DEFENDERS SOUTHERN DISTRICT
OF ALABAMA
RSA TOWER
11 NORTH WATER STREET
STE. 11290
MOBILE, AL 36602
251433010

